No. 19-41

3Jn mbe

~upreme qtourt of tbe Wntteb ~tates
KEITH A. TuCKER; LAURA B. TuCKER,

Petitioners,

v.
COMMISSIONER OF INTERNAL REVENUE,

Respondent.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

REPLY IN SUPPORT PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF SERVICE
I, Gregory G. Garre, counsel of record for Petitioners Keith A. Tucker and
Laura B. Tucker, and a member of the Bar of this Court, hereby certify that on the
18th day of September, 2019, I caused to be served three (3) copies of the Reply in
Support of Petition for a Writ of Certiorari in the above-referenced case by first-class
mail, postage prepaid, upon counsel for Respondent as listed below:

Noel Francisco
Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
(202) 514-2203
SupremeCtBriefs@USDOJ.gov

Counsel for Respondent
Additionally, in accordance with Supreme Court Rule 29.3, an electronic
version of the Reply in Support of Petition for a Writ of Certiorari was transmitted to
the above-listed counsel at the referenced email address.

I further certify that all parties required to be served have been served.
AA
~ - ~ .... ._
By ~
f//1/Jr
L~•z....•_
Gregory G. Garre
LATHAM & WATKINS LLP
55511th Street, NW
Suite 1000
Washington, DC 20004
(202) 637-2207
gregory.garre@lw.com

Counsel for Petitioners

2

